January 20, 2021

Hon. Scott Harris
Office of the Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Scott Seldin, Individually and as Trustee of the Selden 2002 Irrevocable Trust
dated Oct. 9, 1993, et al. v. Estate of Stanley C. Silverman, et al., No. 20-895

Dear Mr. Harris:
We represent the Respondent, Estate of Stanley C. Silverman, et al., in the
above-referenced matter.
Petitioner filed a petition for writ of certiorari on Dec. 31, 2020. Respondent’s
brief in opposition is due on or before February 8, 2021. Pursuant to Supreme Court
Rules 15.3 and 30.4, Respondent respectfully requests a sixty day extension of time
in which to file their brief in opposition. Granting the extension would mean that
Respondent’s brief would be due on or before April 9, 2021.
We request this modest extension in order to carefully consider and respond to
the arguments raised in the petition and due to the press of other business, including
upcoming appellate arguments and briefing. Petitioner consents to this extension
request and counsel for petitioner is being served with a copy of this letter.
Thank you for your consideration of this request.
Sincerely,
/s/ Barbara A. Smith
Barbara A. Smith

CC:

Roman Martinez, Counsel of Record for Petitioner

